THE SUPREME COURT OF THE UNITED STATES
A.S. a 9-year old child with Autism Spectrum Disorder (ASD) entitled
to Special Education and Related services per IDEA
represented by his parents E.S. Pro se and R.S. Pro se
Plain tiffs -Petitioners

APPLICATION TO

\%

EXCEED WORD LIMIT

X%

\
\

SET FOR PETITION

\N.
\

FOR A WRIT OF
CERTIORARI DATE
DUE OCTOBER 5, 2020
-against-

Case No. 1153-CV-501

Board of Education Shenendehowa Central School District,
Interim Commissioner Betty Rosa, of The University of the State of New York
Defendants-Respondents
Roger Swartz and Ekaterina Shishova
42L Hollandale Ln.
Clifton Park, NY 12065
P: 215-280-4756
To: The Honorable Samual Alito, Esq.
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

1 of 7

CC:
Susan T. Johns, Esq.
Ferrara Fiorenza, PC
5010 Campuswood Dr.
East Syracuse, NY 13057
Attorney for the Shenendehowa Central School District

Michael G. McCartin
Assistant Attorney General
The Capitol
Albany, NY 12224-0341
Attorney for Betty Rosa Commissioner of the NYSED

Application to exceed word limit in filing a Petition for a Writ of Certiorari from
the Decision, Order and Judgment of The United States Court of Appeals of the
Second Circuit for Action No. 1153-CV-501 by Judges Pierre N. Leval, Raymond
J. Lohier, Jr. and Michael H. Park to dismiss for lack of jurisdiction the Appeal
from the Memorandum-Decision and Order and Judgment of Case No. L17CV501-LEK/CFH of The United States District Court for the Northern District
of New York by Judge Lawrence E. Khan entered February 20, 2019 and Motion
to Reopened Granted on March 16, 2020 and postmarked on March 16, 2020.

2 of 7

APPLICATION TO EXCEED WORD LIMIT IN FILING PETITION FOR A
WRIT OF CERTIORARI
Dear Supreme Court Justice Alito,
My condolences to the recent loss of Supreme Court Justine Ginsburg. She has
served the court and the public well and her legacy will live on in a most
significant way! One can only admire the principles she lived by and her
dedication to the laws of this great country so that justice may be served for all in
these constantly changing times.

For reasons stated below A.S. represented by his parents R.S. pro se and E.S. pro
se respectfully move to file a Petition for a Writ of Certiorari in excess of the
9,000 word-limit not to exceed 18,000 words.

This case arises out of the individuals with disabilities education act (IDEA) as it
relates to individuals with autism. There are 10-11 questions listed below (the
eleventh question may be removed or even changed) which may be adjusted in
their wording, cannot be petitioned in the proper way in 9,000 words.

The 11 Questions are listed as follows:
1. Whether an appellate court may sue sponte dismiss an appeal which has
been filed within the time limitations stated in the Federal Rules of

3 of 7

Appellate Procedure FRAP Rule 26(c) that adds 3 days for service by mail
to file an appeal for which the motion has been granted to reopen the time
to file an appeal under rule 4(a)(6) of FRAP.
2. Whether non-attorney pro se parents can reasonably have been expected to
know of unwritten rules that lawyers take for granted that FRAP Rule
26(c) does not apply to mailed motions that are granted to reopen the time
to file an appeal under rule 4(a)(6) of FRAP when that is impossible to
determine when reading the Federal Rules of Appellate Procedure.
3. Whether FRAP is improperly written and that substantially and
unlawfully disadvantages non-attorney pro se parents in cases when
motion has been granted by mail to reopen the time to file an appeal under
rule 4(a)(6) and FRAP Rule 26(c) is interpreted to apply.
4. Whether the interpretation of FRAP is intended to be based on the stand­
alone document and whether supplementary rules are required for its
interpretation where such supplementary rules are referenced within
FRAP to the particular application of FRAP rules 26(c) on FRAP rules
4(a)(6)?
5. Can a court defer to the opinion of a lower judicial body when there is an
alleged bias of that lower judicial body?
6. Is a child diagnosed with autism spectrum disorder that meets the
requirements to receive Special Education and Related Services entitled to

4 of 7

a particular evidence-based methodology such as Intensive Behavioral
Intervention or Applied Behavior Analysis?
7. Are the rules, regulations and laws of 8 N.Y.C.R.R. §200 et seq. and also
The IDEA 20 U.S.C. §§ 1400-1482 written so that they are
unconstitutionally vague and such that they unlawfully empower school
personnel, schools, school districts other Local Education Agencies (LEAs)
to broadly interpret the education law themselves especially on such
pertinent matters of Least Restrictive Environment (LRE) determinations
and the appropriateness of a particular methodology such that it permits
the curtailing of the rights of students receiving special education and
their parents and consistently results in a denial of a FAPE, a denial of
access to the students LRE to the maximum extent appropriate and also
results in confusion amongst the appellate courts on how to interpret the
education law and render a judgment?
8. In light of Question 7., should those unconstitutionally vague rules,
regulations and laws in 8 N.Y.C.R.R. §200 et seq. be replaced by more clear
and specific rules, regulations and laws that allows for a narrowly defined
interpretation of those laws by all teachers, parents, lawyers and judicial
bodies? In other words should the assessment of a specific child with
autism and their recommended programming be sufficiently similar across
different evaluators in different school districts and would that require a
well-defined interpretation of the special education law?

5 of 7

r

.f-v

9. Given the nature of the common developmental delays found in nearly all
autism spectrum disorder (ASD) diagnoses, if a student with a an ASD
entitled to an Individualized Education Plan (IEP) and special education
and related services should the three measures of l) expressive language,
2) conversational ability (measured in the number of peer aged exchanges
that a student can consistently demonstrate) with typically developing
peers if in their LRE and 3) a reduction in prompt dependence be
guaranteed goals on the student’s IEP since these measures are necessary
to the purpose of The Individuals with Disabilities Education Act (The
IDEA) (20 U.S.C. §§ 1400-1482) which is “to ensure that students with
disabilities have available to them a FAPE in the LRE to the maximum
extent appropriate that emphasizes special education and related services
designed to meet their unique needs and prepare them for further
education, employment, and independent living” (20 U.S.C. §§
1400(d)(1)(A))?
10. If Question 9 is not answered in the affirmative does 20 U.S.C. §§
1400(d)(1)(A)) have any meaning for a child with autism?
11. Are federal laws that permit the withholding of funding if special
education laws are not met unenforceable

6 of 7

•■4K

In order to adequately file a Petition for a Writ of Certiorari for these questions it
is requested that the Court grant the application to exceed the word limit from
9,000 words to under 18,000 words.

Respectfully Submitted,

Thursday September 24, 2020

t/.

E.S. Pro Se on behalf of A.S.

R.S. Pro Se,

7 of 7

behalf of A.S.

MANDATE

ftf§rtfa02D, 6®idU®50Fa9e1Pafc|fe 1 of 1

N.D.N.Y.
17-CV-501
Kahn, J.
Hummel, M.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 8th day of May, two thousand twenty.
Present:
Pierre N. Leval,
Raymond J. Lohier, Jr.,
Michael H. Park,
Circuit Judges.

R.S., individually and on behalf of their son, A.S., E.S.,
individually and on behalf of their son, A.S.,
Plaintiffs-Appellants,
20-1153

v.

Board of Education Shenendehowa Central School District,
MaryEllen Elia, Commissioner of the University of the State
of New York,
Defendants-Appellees,
Justyne Bates, Chief State Reviewer, Office of State Review
New York State Education Department,
Defendant.

This Court has determined sua sponte that the notice of appeal was untimely because it was not
filed within 14 days from the date of entry of the order reopening the time to appeal. Upon due
consideration, it is hereby ORDERED that the appeal is DISMISSED for lack ofjurisdiction. See
28 U.S.C. § 2107(c); Fed. R. App. P. 4(a)(6); Bowles v. Russell, 551 U.S. 205, 214 (2007).
A True Copy
Catherine O’Hagan W
United States ©

f Appeals,!
secOno U

ond Circuit

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

<4MANDATE ISSUED ON 06/01/2020

